uov_»M*t Mppeai; z.u-o iou

l»uu:

i i

meu: uo/o iuxt£\)

ry: i 01 o

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6180
DARRIS ALTONY NEWSOME,
Petitioner - Appellant,
v.
HAROLD CLARKE,
Respondent - Appellee.

No. 20-6674
DARRIS ALTONY NEWSOME,
Petitioner - Appellant,
v.
HAROLD CLARKE,
Respondent - Appellee.

Appeals from the United States District Court for the Eastern District of Virginia, at
Alexandria. Liam O’Grady, Senior District Judge. (l:20-cv-00050-LO-TCB)
Submitted: July 31, 2020

Decided: August 31, 2020

uoomh

/Appeal: ^u-o

iou

uou: i i

rneu: uo/o i/<iuzu

rg: ^oio

Before NIEMEYER, HARRIS, and QUATTLEBAUM, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Darris Altony Newsome, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

2

uou/ah

Mppeai; zu-o

iovj

uoc: i i

meu: uo/o i/zuzu

ry: o 01 o

PER CURIAM:
Darns Altony Newsome seeks to appeal the district court’s order dismissing his 28
U.S.C. § 2254 (2018) petition as unauthorized and successive. The order is not appealable
unless a circuit justice or judge issues a certificate of appealability.

See 28 U.S.C.

§ 2253(c)(1)(A) (2018). A certificate of appealability will not issue absent “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When, as
here, the district court denies relief on procedural grounds, the prisoner must demonstrate
both that the dispositive procedural ruling is debatable and that the petition states a
debatable claim of the denial of a constitutional right. Gonzalez v. Thaler, 565 U.S. 134,
140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Newsome has not
made the requisite showing. Accordingly, we deny a certificate of appealability and
dismiss the appeal. We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

3

FILED: October 14, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6180 (L)
(l:20-cv-00050-LO-TCB)

DARRIS ALTONY NEWSOME
Petitioner - Appellant
v.
HAROLD CLARKE
Respondent - Appellee

No. 20-6674
(l:20-cv-00050-LO-TCB)

DARRIS ALTONY NEWSOME
Petitioner - Appellant
v.
HAROLD CLARKE
Respondent - Appellee

3

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Harris, and
Judge Quattlebaum.
For the Court
/s/ Patricia S. Connor. Clerk

?>

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Darris Newsome,
Petitioner,

)
)
)
)
)
)
)

v.
Harold Clarke,
Respondent.

I:19cvl320 (LO/MSN)

ORDER
On October 4, 2019, the Clerk opened this action upon receipt from Virginia inmate
Darris Newsome of a pro se, one-page filing stating that he was “giving notice of his intent to
appeal the Order of the Supreme Court [of Virginia] entered on the 17th day of September,
2019.” [Dkt. No. 1]. Since then, no further filings have been forthcoming from Newsome. For
the following reasons, this action will be dismissed as either having been improvidently opened
or, in the alternative, for lack of jurisdiction.
First, this Court does not decide “appeals” from state court decisions. If Newsome is, in
fact, seeking to “appeal” a decision of the Supreme Court of Virginia, this action has been
improvidently opened and must be dismissed.

*

Second, to the extent Newsome is seeking not to file an “appeal,” but rather a second
petition for a writ of habeas corpus to obtain collateral relief from his 2012 state court
'^^he may not do so until after he has requested and obtained authorization
convictions for
from the United States Court of Appeals for the Fourth Circuit to do so. See 28 U.S.C. § 2244.
This is so because this Court considered and dismissed Newsome’s first federal habeas petition,
see Newsome v. Clarke. No. I:15cv337 (E.D. Va.), appeal dism.,655 F. App’x 980 (4th Cir.
2016), and this Court is without jurisdiction to consider a second or successive petition absent

R

the requisite prefiling authorization from the Fourth Circuit. Here, Newsome has not proffered
such authorization.
Accordingly, it is hereby
ORDERED that this action be and is DISMISSED.
The Fourth Circuit has held that “[a] jurisdictional dismissal of a collateral attack on a
habeas proceeding is so far removed from the merits of the underlying habeas petition that it
cannot be said to be a ‘final order[] ... disposing of the merits of a habeas corpus proceeding . ..
challenging the lawfulness of the petitioner’s detention.’” United States v. McRae, 793 F.3d
392, 400 (4th Cir. 2015) (quoting Harbison v. Bell, 556 U.S. 180, 183 (2009)). It has therefore
held that a Certificate of Appealability is not required “before determining whether the district
court erred in dismissing ... an unauthorized successive habeas petition.” Id. Accordingly, the
Court expresses no view on whether a Certificate of Appealability should be issued here.
To appeal this decision, Newsome must file a written notice of appeal with the Clerk’s
office within thirty (30) days of the date of this Order. See Fed. R. App. P. 4(a). A written notice
of appeal is a short statement indicating a desire to appeal and including the date of the Order
Newsome wishes to appeal. Failure to file a timely notice of appeal waives the right to appeal

4

this decision.

£

The Clerk is directed to send a copy of this Order to Newsome.
Entered this ,0^0

day of

, 2019.

Alexandria, Virginia
/s/
Li am O’ Grady
V\
United States District Judge

2

H

Additional material
from this filing is
available in the
Clerk's Office.

